  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




  National Telecommunications
and Information Administration

   Third Annual Assessment of the
       Public Safety Interoperable
  Communications Grant Program:
  NTIA and FEMA Need to Improve
         Oversight of PSIC Grants

                  Final Report No. OIG-12-008-A
                             November 10, 2011



               FOR PUBLIC RELEASE

                  Office of Audit and Evaluation
                                    Report In Brief
                                            U.S. Department of Commerce Office of Inspector General
                                                                   November 10, 2011


                                            Third Annual Assessment of the Public Safety Interop-
Why We Did This Review
                                            erable Communications Grant Program: NTIA and
The Implementing Recommenda-                FEMA Need to Improve Oversight of PSIC Grants
tions of the 9/11 Commission Act   (OIG-12-008-A)
of 2007 require the Department
of Commerce Office of Inspector
General (OIG) to annually assess
the National Telecommunications    What We Found
and Information Administration’s
(NTIA’s) management of the
Public Safety Interoperable Com-
munications (PSIC) grant program We found that NTIA and FEMA need to improve their grantee monitoring. Neither NTIA nor
and to transmit findings to the  FEMA adequately monitored and addressed:
House Committee on Energy and        •	 PSIC equipment purchases and operating capability. Even though approximately 90
Commerce and the Senate Com-
                                        percent of the PSIC program will fund the purchase and deployment of equipment, we
mittee on Commerce, Science and
Transportation.                         found no evidence that NTIA or FEMA had procedures in place to specifically monitor
                                                  whether equipment purchased with PSIC funds is appropriate, has been tested, operates
                                                  as planned, and improves communication interoperability.
                                             •	   Matching share issues. A review of December 2009–June 2011 financial reports
Background
                                                  indicated that not all grantees were providing matching shares at the same rate as their
                                                  federal expenditures.
The Digital Television Transition
and Public Safety Act of 2005                •	   Progress towards meeting program goals. At the time of our audit, NTIA and FEMA
(the Act) authorized NTIA—in                      did not have documented plans to track (through onsite or office-based monitoring) the
consultation with the Department                  achievement of milestones and project goals for grantees.
of Homeland Security (DHS)—to            We also found that certain grantees with low drawdowns may be at risk of not completing their
implement the PSIC program, a $1
                                         projects by September 30, 2012.
billion, one-time, formula-based
matching grant program intended          NTIA and FEMA also intended to evaluate the success of the PSIC program by having grantees
to enable public safety agencies to      provide evidence of improvements in interoperability at the completion of (rather than during)
establish interoperable emergency        each grant period. In this scenario, however, issues discovered after grant funds have been ex-
communications systems using             pended will be difficult to correct, decreasing the likelihood of the program’s success.
reallocated radio spectrum. NTIA
awarded PSIC grants to all states
and 5 territories and the District of
Columbia ranging from $692,000              What We Recommended
to $94.0 million and averaging
$17.3 million. The goals of the
PSIC program are to (1) achieve          We recommend that the Assistant Secretary for Communications and Information, in coordina-
meaningful and measureable im-           tion with the Assistant Administrator, FEMA Grants Program Directorate:
provements in public safety and (2)          1.	 Implement a plan that provides for the active monitoring of equipment and its opera-
fill interoperability gaps indentified           tional capability.
in statewide plans.
                                             2.	 Develop a formal document for grantees that reconciles all existing guidance on
DHS, in cooperation with NTIA,
provides grants management                       proportionality and emphasize close monitoring to ensure that matching share require-
services for the PSIC program; the               ments will be met.
Federal Emergency Management                 3.	 Actively monitor and document grantee progress towards achieving program goals, in-
Agency (FEMA) handles the DHS                    cluding the achievement of updated milestones for grantees that requested an extension
responsibilities. PSIC program
                                                 until September 2012
funding has been extended until
expended—but not beyond Sep-                 4.	 Provide evidence to the OIG quarterly that those grantees with less than 50 percent
tember 30, 2012.                                 drawdowns as of September 30, 2011, are being actively monitored through closeout.
U.S. Department of Commerce                                                                                                    Final Report
Office of Inspector General                                                                                               November 10, 2011


                                                                  Contents
Introduction ..................................................................................................................................... 1
Findings and Recommendations ..................................................................................................... 3
    I. NTIA and FEMA Need to Improve Oversight of PSIC Grants ............................................ 3
      A. NTIA and FEMA Need to Improve Their Monitoring of PSIC Equipment Purchases and
         Operational Capability ........................................................................................................ 4
      B. NTIA and FEMA Need to Improve Their Monitoring of Matching Share Issues.............. 4
      C. NTIA and FEMA Are Not Adequately Monitoring Achievement of Milestones and PSIC
         Program Goals .................................................................................................................... 5
    II. Certain Grantees May Be at Risk of Not Completing Projects by September 30, 2012 ...... 7
    III. Recommendations ................................................................................................................. 7
Summary of Agency Responses and OIG Comments .................................................................... 9
Appendix A: Objectives, Scope, and Methodology ..................................................................... 11
Appendix B: PSIC Drawdowns .................................................................................................... 13
Appendix C: Responses to OIG Draft Report .............................................................................. 16
U.S. Department of Commerce                                                                  Final Report
Office of Inspector General                                                             November 10, 2011


                                                               Introduction

The Implementing Recommendations of the 9/11 Commission Act of 2007 require the
Department of Commerce Office of Inspector General (OIG) to annually assess the National
Telecommunications and Information Administration’s (NTIA’s) management of the Public
Safety Interoperable Communications (PSIC) grant program and to transmit findings to the
House Committee on Energy and Commerce and the Senate Committee on Commerce, Science
and Transportation.

The Digital Television Transition and Public Safety Act of 2005 (the Act) authorized NTIA—in
consultation with the Department of Homeland Security (DHS)—to implement the PSIC
program, a $1 billion, one-time, formula-based matching grant program intended to enable
public safety agencies to establish interoperable emergency communications systems using
reallocated radio spectrum. NTIA awarded PSIC grants to all states and 5 territories and the
District of Columbia ranging from $692,000 to $94.0 million and averaging $17.3 million. The
goals of the PSIC program, according to NTIA’s revised PSIC Grant Program Guidance and
Application Kit,1 are to (1) achieve meaningful and measureable improvements in public safety
and (2) fill interoperability gaps indentified in statewide plans. In February 2007 NTIA and DHS
signed a memorandum of understanding under which DHS, in cooperation with NTIA, provides
grants management services for the PSIC program. DHS responsibilities include:

             developing policies and procedures;
             providing grantees technical assistance in meeting programmatic and financial
              requirements;
             monitoring grantees’ technical and financial performance, including the collection of
              appropriate reports; and
             conducting site visits to verify progress and completion of funded projects.

Federal Emergency Management Agency (FEMA) handles the DHS responsibilities under the
memorandum of understanding. FEMA directly oversees more than 80% of all DHS grants, and
is the principal component within DHS responsible for preparing state and local governments to
prevent, protect against, respond to, and recover from incidents of terrorism and other
catastrophic events. The Act established that funds for the PSIC program would only be
available until September 30, 2010. However, the President signed Public Law 111-96 on
November 6, 2009, extending funding until expended, but not beyond September 30, 2012. The
new law also extended the performance period of all PSIC grants through fiscal year (FY) 2011,
and allowed for additional extensions, through FY 2012, on a case-by-case basis, if approved by
the Assistant Secretary for Communications and Information.

This report details our third annual assessment of NTIA’s PSIC grants management, including
the role of FEMA, for the fiscal year that ended September 30, 2010, with selected updates
                                                            
1
 National Telecommunications and Information Administration and Federal Emergency Management Agency,
August 16, 2007. Revised PSIC Program Guidance and Application Kit, 2 [Online].
www.ntia.doc.gov/psic/PSICguidance_081607.pdf (accessed August 9, 2011).



                                                                    1 
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                     November 10, 2011


through September 2011. Our audit focused on NTIA’s management of the PSIC program to
determine whether NTIA effectively meets its responsibility to monitor the grants and ensure the
achievement of PSIC program goals and FEMA effectively fulfills its responsibilities, as
outlined in the memorandum of understanding to provide grant services. A complete outline of
our objectives, scope, and methodology appears in appendix A.




                                               2 
U.S. Department of Commerce                                                                    Final Report
Office of Inspector General                                                               November 10, 2011


                                                           Findings and Recommendations

I.         NTIA and FEMA Need to Improve Oversight of PSIC Grants

NTIA and FEMA need to improve their PSIC grantee monitoring, particularly related to:

             the purchase and operating capability of PSIC project equipment,
             addressing matching share issues, and
             monitoring program goals including achievement of milestones.

We also found that certain grantees with low drawdowns may be at risk of not completing their
projects by September 30, 2012. In addition, NTIA and FEMA stated that they intend to evaluate
the success of the PSIC program by having grantees provide evidence that interoperability was
improved with PSIC funds at the completion of each grant.

We do not consider NTIA’s and FEMA’s current monitoring plan and the delay in addressing
grantee success to be timely and adequate monitoring. Issues discovered under this approach
may prove difficult to correct, decreasing the likelihood of success for grantees in their
communications operations.

We also noted that both NTIA and FEMA previously issued several documents summarizing
standard technical assistance issues and have provided prompt responses to grantees via e-mail
and telephone. Our review of technical assistance provided did not find any areas of concern.

Grant monitoring is a critical management tool to determine whether grantees have appropriately
implemented a program, achieved objectives, and properly expended funds. The revised PSIC
Program Guidance and Application Kit2 dated August 16, 2007, states that both NTIA and DHS
program staff will monitor grant recipients and subrecipients. It further explains that monitoring
will be accomplished through a combination of office-based and onsite monitoring visits to
ensure that grantees are meeting the project goals, objectives, performance requirements,
timelines, milestone completion, budgets, and other related program criteria. As discussed in the
introduction, NTIA and DHS signed a memorandum of understanding in February 2007
providing that DHS (through FEMA) will oversee and administer the PSIC program. In turn,
FEMA contracted with Booz Allen Hamilton (BAH) to assist with these activities. NTIA and
FEMA monitoring activities to date have focused primarily on grant-related administrative and
financial requirements and not on measuring improvements or the achievement of program
goals.




                                                            
2
    See page 35.



                                                                        3 
U.S. Department of Commerce                                                                      Final Report
Office of Inspector General                                                                 November 10, 2011


A. NTIA and FEMA Need to Improve Their Monitoring of PSIC Equipment Purchases and
Operational Capability

According to NTIA’s online guide, Improving Interoperable Communications Nationwide:
Overview of Initial State and Territory Investments3, PSIC grantees plan to spend over $800
million (more than 90% of PSIC funds) on acquisition and deployment of equipment. The
revised PSIC Program Guidance and Application Kit4 states that the DHS Authorized
Equipment List applies to the PSIC grant program—
                                                           Project 25 (P25) is a set of national 
and that agencies purchasing Project 25- (P25-)
                                                           standards for manufacturing 
compliant equipment must obtain documented evidence interoperable, digital, two‐way wireless 
from the manufacturer that the equipment has passed all communications products. Radio 
applicable compliance test procedures.                     equipment that meets P25 standards 
                                                                    can communicate with any other P25 
Despite the fact that approximately 90 percent of the        system, regardless of vendor, enabling 
PSIC program funds will be used for the purchase and         users of different systems to talk via 
deployment of equipment, at the time of our fieldwork        direct radio contact. 
the FEMA grant files did not contain evidence that
NTIA or FEMA had procedures in place to specifically monitor whether equipment purchased
with PSIC funds is appropriate, has been tested, operates as planned, and improves
communication interoperability. After presenting this issue, FEMA stated that reviews of state
agencies are performed by its program analysts and that PSIC programs are included in these
reviews. PSIC is only 1 of 10 preparedness grant programs; grants of various types for a
particular state agency can number up to 30. We asked for a sample of six state agency reviews
by program analysts. FEMA provided five; the sixth had not been subject to the review. These
reviews focused on capability improvements at the state agency level and not specific equipment
purchases and operational capabilities and functionalities. Both agencies stated that it is the
grantees’ responsibility to ensure that equipment works as intended and that the agencies will
conduct a review only as part of the grant close-out procedures.

PSIC requires grantees to compile a disposition report detailing equipment purchases, ownership,
and purpose as part of the close-out procedures. However, NTIA and FEMA should implement a
plan that provides for the specific monitoring of PSIC equipment and its operational capability.

B. NTIA and FEMA Need to Improve Their Monitoring of Matching Share Issues

A review of several Federal Financial Reports (FFR 425) from December 2009 to June 2011
indicated that not all grantees were providing matching shares at the same rate as their federal
expenditures. Certain grantees had not reported any match on consecutive financial reports and
other grantees were not reporting match in proportion to federal drawdowns.

There is conflicting grant guidance on the proportionality issue. The PSIC Program Guidance
and Application Kit5 states that “grantees will only be permitted to draw down PSIC funds in

                                                            
3
  NTIA, November 2008. Improving Interoperable Communications Nationwide: Overview of Initial State and
Territory Investments, 1 [Online]. www.ntia.doc.gov/legacy/psic/background.html (accessed August 9, 2011).
4
  See pages 41, 43.
5
  See page 31.



                                                               4 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                        November 10, 2011


proportion to demonstrated non-federal matching funds” and NTIA and FEMA’s Program
Management Handbook6, states that matching funds need to be provided at a rate that is
proportional to the federal funds drawn down. Special conditions of the awards state that the
recipient agrees to follow the PSIC Grant Program Guidance and Application Kit. On the other
hand, special award conditions also state that grantees need to follow FEMA’s Financial
Management Guide which states proportionality is not required.

At the time of our audit, FEMA stated that it views proportional matching as only a guideline
and that it intended to request a waiver from NTIA. Subsequent to raising the issue during our
audit period, NTIA obtained an August 2011 memorandum from the Commerce Federal
Assistance Law Division concluding that proportionality was not required for matching share.

Despite the conflicting guidance, NTIA and FEMA agree that monitoring match is important to
achieving PSIC goals and both agencies state their intent to actively review matching share.
NTIA and FEMA also assert that they review matching share on a continuous basis and have
instructed grantees on how to address proportionality and comply with matching requirements.
However, as mentioned above, certain grantees reported no match on consecutive financial
statements. One of those grantees had a pulse check (desk review) in February 2011 and the
write up provided did not indicate matching share was discussed. Additionally, a review of the
grant files did not show any evidence that matching share requirements were discussed.

In addition to conflicting rules on matching share, FEMA’s reports are also in conflict. A
comparison of matching share figures on the FFR 425 and biannual strategy implementation
reports (BSIR) shows that grantees are reporting inconsistent amounts. The June and December
reports reported matching share should be the same.

NTIA and FEMA stated that some of the grantees showing no matching share on FFR reports
subsequently revised their reports to include match. However, if NTIA and FEMA allow
grantees to draw down funds that are not in proportion to match, grantees may not meet overall
PSIC goals. Deferring action on the matching issue for other grantees until a site visit occurs, or
until final closing procedures, increases the likelihood that grantees will not meet these
requirements.

C. NTIA and FEMA Are Not Adequately Monitoring Achievement of Milestones and PSIC
Program Goals

The revised PSIC Program Guidance and Application Kit7 indicates that both NTIA and DHS
program staff will monitor grant recipients and subrecipients. It states that monitoring will be
accomplished through a combination of office-based and onsite monitoring visits to ensure that
the project goals, objectives, performance requirements, timelines, milestone completion,
budgets and other related program criteria are being met. It also states that monitoring will
include both office-based and onsite monitoring. At the time of our entrance conference, NTIA

                                                            
6
  NTIA and FEMA, October 2009. Program Management Handbook, 37 [Online].
www.ntia.doc.gov/psic/PSIC_Handbook_111809.pdf (accessed August 9, 2011).
7
  See page 35.



                                                               5 
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                     November 10, 2011


and FEMA did not have documented plans to track the achievement of milestones and project
goals for grantees.
Office-Based Monitoring

NTIA and FEMA have performed office-based monitoring by conducting desk reviews of
grantees, reviewing grantee-provided financial reports, conducting pulse checks (high-level
telephone conversations to discuss individual investments), responding to grantee e-mails, and
reviewing all National Environmental Policy Act- (NEPA-) related documentation. However,
NTIA and FEMA have not tracked the achievement of milestones or project goals for each PSIC
grantee’s investment justifications. Grantee milestones included a description of objectives, a
start and end date, and investment impacts describing outcomes that will determine success.
Outcomes should include compelling reasons why the investment will make a difference in the
communication capabilities of its stakeholders and how it improves interoperability.

Both agencies plan to:

      evaluate the success of the PSIC program by having grantees provide evidence that
       interoperability was improved with PSIC funds at the completion of each grant;
      maintain contact with grantees through NEPA reviews; and
      conduct limited site visits.

Because NTIA and FEMA are not actively monitoring achievement of milestones and PSIC
program goals, we consider this an incomplete approach, one that increases the likelihood that
awardees will not achieve PSIC program goals.

Onsite Monitoring

In response to our request for all PSIC grant monitoring reports, NTIA and FEMA provided us
with information that they had performed only two PSIC monitoring site visits as of December
2010. Our subsequent examination of 12 FEMA grant files did not reveal any PSIC monitoring
site visits. The two site visits for which information was provided to us focused on the NEPA
approval process, the modification process, and an explanation of reporting requirements. NTIA
and FEMA also provided documentation on five more site visits, conducted during March and
May 2011, focused on an overview of each PSIC investment and included a review of match
documentation and PSIC equipment. We were not able to evaluate the overall value of these
visits, but we consider the expanded procedures to represent an improvement. During our
fieldwork, NTIA and FEMA stated that they planned to conduct 11 more site visits in 2011 (as
well as 12 more in 2012 and 12 as part of the close-out process) to focus on PSIC grant program
investments, an assessment of outstanding environmental needs, and any outstanding issues that
could help the grantee successfully implement its PSIC investments. FEMA also stated that
program reviews were performed on PSIC grants by its program analysts. We asked for a copy
of these reviews for the same six state agencies that we asked for as described in section A.
These reports have not been provided to us. Therefore, we are not able to evaluate the
effectiveness of those reviews.




                                                6 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                        November 10, 2011


Subsequent to our field work, on August 16, 2011, FEMA submitted to us a Monitoring Plan for
PSIC they described as supplemental. The supplemental plan calls for 10 site visits in calendar
year 2011 and none after that. It also states, in a section entitled “Proposed Activities,” that it
will rely on activities in three categories: financial monitoring, email reminders (e.g., mass
emails, individual follow-ups), and site visits. The plan further states that these activities will
provide insight into grantees’ ability to meet established milestones and complete PSIC-funded
projects by the required deadlines. The supplemental FEMA monitoring plan does not clearly
address the tracking of achievement of milestones and program goals. FEMA and NTIA stated
that, although there are no site visits in this plan for 2012, they still intend to conduct 12 site
visits during 2012.

Also subsequent to our field work, FEMA submitted information that it had performed 9
additional site visits in the 2008 early phases of PSIC. The drawdown levels for the state
agencies at the time of these site visits ranged from $0 to $1.2 million. None of this information
was included in the FEMA grant files or in response to our request for all site visits. Because this
information was dated (performed 3 years ago) and was provided to us after the close of our field
work in response to our draft report, we did not evaluate these visits.

II.    Certain Grantees May Be at Risk of Not Completing Projects by September 30, 2012

The PSIC grant program has granted 41 of the 56 grantees an extension until September 30,
2012, to expend funds (see appendix B). This represents 83 percent of the total PSIC federal
funds. Certain grantees that have drawn down a low percentage of federal funds could find
themselves in jeopardy of not completing their projects on time and be required to return unused
funds to the U.S. Department of the Treasury. As of September 30, 2011, there were 8 grantees
that had drawn down 50 percent or less of project funds (see appendix B). NTIA and FEMA did
not express concerns with the rate of drawdowns, stating that these rates were not uncommon
compared to similar grant programs.

The low drawdowns for certain grantees are reason for significant concern about the adequate
oversight of grant activities and the completion of projects by the September 30, 2012 deadline.

III.     Recommendations

We recommend that the Assistant Secretary for Communications and Information, in
coordination with the Assistant Administrator, FEMA Grants Program Directorate:

      1. Implement a plan that provides for the active monitoring of equipment and its operational
         capability.
      2. Develop a formal document for grantees that reconciles all existing guidance on
         proportionality and emphasize close monitoring to ensure that matching share
         requirements will be met.
      3. Actively monitor and document grantee progress towards achieving program goals,
         including the achievement of updated milestones for grantees that requested an extension
         until September 2012.



                                                 7 
U.S. Department of Commerce                                                       Final Report
Office of Inspector General                                                  November 10, 2011


   4. Provide evidence to the OIG quarterly that those grantees with less than 50 percent
      drawdowns as of September 30, 2011, are being actively monitored through closeout.




                                             8 
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                      November 10, 2011


                    Summary of Agency Responses and OIG Comments

NTIA Response and OIG Comments

The Assistant Secretary for Communications and Information responded for NTIA and agreed
with our findings and recommendations. He stated that the program strives to focus monitoring
on the prudent use of taxpayers’ dollars and compliance with federal financial and grants-related
requirements—and recognizes that additional emphasis on monitoring grantees will increase the
likelihood of the program’s success. In addition, he stated that NTIA will work with FEMA to
implement the recommendations related to the monitoring of equipment purchases and
operational capability, nonfederal matching share funds, achievement of milestones, and
drawdown of federal funds. NTIA specifically responded to each of our four recommendations
stating plans to:

   1. add an agenda section to address specific equipment purchases as well as operational
      capabilities and functionalities for the remaining 19 PSIC site visits;

   2. issue an official notice through its formal communications method, the PSIC e-mail
      account, to clarify that the DHS Financial Management Guide is the controlling
      document on the nonfederal matching requirements and emphasize the review of
      matching share requirements quarterly to ensure that no recipient is short of the
      requirement by the end of the grant award;

   3. add a specific agenda topic to address progress towards meeting updated milestones for
      the remaining 19 site visits and use an internal milestone chart to guide direct follow-ups
      with recipients completing investments each quarter; and

   4. closely monitor progress of the eight recipients that have drawn down 50 percent or less
      of federal funds, send a quarterly progress update to the OIG and visit each site.

We concur with NTIA’s proposed actions.

FEMA Response and OIG Comments

In its response to our draft report, FEMA did not concur with recommendations 1 and 2 and
stated that it concurred with the intent of recommendations 3 and 4. However, despite stating that
it did not agree with recommendations 1 and 2, FEMA stated that it considers all
recommendations resolved. FEMA provided specific plans to update their monitoring
procedures. These plans are consistent with the NTIA plans described above and relate
specifically to our four recommendations. FEMA plans to:

1. supplement its postaward monitoring efforts to include targeted questions that address
   equipment purchases, and for the remaining site visits in 2011 and 2012 add the topic of
   equipment purchases and operational capability to the site visit agenda;




                                                9 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                         November 10, 2011


2. prepare a draft clarifying the proportionality issue and distribute it to grant recipients from
   the authorized PSIC Program Office e-mail account by the end of the first quarter of fiscal
   year 2012;

3. revise the Monitoring and Communications Strategy to include placeholder site visits in 2012
   and issue additional clarifying language about the purpose of the strategy and from now
   through the end of the extended period of performance conduct quarterly check-ins with
   grantees to gauge progress; and

4. schedule site visits to all grantees with draw downs of 50 percent or less by the first quarter
   of 2012.

Although we do not agree with FEMA’s assertions of nonconcurrence or with its assertions
related to the resolution of recommendations addressed to NTIA, we concur with FEMA’s
proposed actions. We will work with NTIA on its action plan to address the recommendations in
this report.




                                                 10 
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                     November 10, 2011


                    Appendix A: Objectives, Scope, and Methodology

This report details our third annual assessment of NTIA’s PSIC grants management, including
the role of FEMA, for the fiscal year ended September 30, 2010, with selected updates through
September 2011. Our audit focused on NTIA’s management of the PSIC program to determine
whether (1) NTIA effectively meets its responsibility to monitor the grants and ensure the
achievement of PSIC goals and (2) FEMA effectively fulfills its responsibilities as outlined in
the memorandum of understanding to provide grant services. We also reviewed the extent of
NTIA monitoring to determine whether (3) grantees efficiently acquire communications
equipment; (4) grantees will complete projects before September 30, 2011, or by the end of FY
2012 with NTIA’s approval; and (5) technical assistance provided by NTIA and FEMA
effectively helps grantees achieve PSIC goals by the program deadline. We conducted our
fieldwork at both NTIA and FEMA headquarters, located in Washington, DC.
To meet our objectives, we met with NTIA officials and FEMA Grant Programs Directorate
officials responsible for the PSIC grant program and reviewed:

      grant files for selected grantees;
      MOUs between NTIA and FEMA, as well as NTIA and the U.S. Department of the
       Navy;
      supporting documentation regarding financial and programmatic monitoring activities;
      NTIA’s and FEMA’s organizational structure for the PSIC program;
      DHS PSIC grant monthly drawdown reports for each state and territory; and
      audit reports of PSIC grants conducted by OIG.

We also evaluated compliance with federal laws and regulations applicable to PSIC grants,
including:

      Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
       Law 109-171; 
      Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
       53; 
      Public Safety Interoperable Communications Grants, Public Law 111-96; 
      NTIA’s online guide, PSIC Program Guidance and Application Kit, August 16, 2007;
      NTIA’s online guide, Improving Interoperable Communications Nationwide: Overview
       of Initial State and Territory Investments, November 2008; and
      NTIA’s Program Management Handbook, October 2009.

We obtained an understanding of NTIA’s management controls by interviewing NTIA officials
and PSIC program officials, examining policies and procedures, and reviewing written assertions
from NTIA officials.




                                               11 
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                    November 10, 2011


We assessed the validity and reliability of computer-processed data supplied by NTIA and the
FEMA Grant Programs Directorate by directly testing the data against supporting
documentation. Based on our tests, we concluded that the computerized data were reliable for
use in meeting our objectives.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We performed this audit under authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.




                                               12 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                        November 10, 2011


                              Appendix B: PSIC Drawdowns

         Table 1. Grantees with Approved Extensions to September 30, 2012

                                                       Drawdowns as of 
                                  PSIC Federal                               Total PSIC Funds      Amount 
State                                                   September 30, 
                                   Funds ($)                                  Remaining ($)       Drawn (%) 
                                                           2011 ($) 

Illinois                         36,414,263                 35,771,558           642,705                98%
Georgia                          25,311,354                 23,695,284          1,616,070               94%
Puerto Rico                        9,590,025                  8,943,700           646,325               93%
Hawaii                             8,069,879                  7,167,190           902,689               89%
Oklahoma                         11,684,183                 10,333,798          1,350,385               88%
Maine                              7,567,579                  6,546,506         1,021,073               87%
Arizona                           17,713,050                15,188,619          2,524,431               86%
Texas                             65,069,247                55,745,062          9,324,185               86%
Iowa                             10,935,974                   9,324,592         1,611,382               85%
Idaho                              7,289,795                  6,201,322         1,088,473               85%
Alaska                             7,250,345                  6,011,045         1,239,301               83%
Nevada                            12,042,417                  9,586,426         2,455,991               80%
Utah                              10,353,261                  8,215,882         2,137,379               79%
South Carolina                    13,499,308                10,617,472          2,881,836               79%
District of Columbia             11,857,972                   9,294,866         2,563,106               78%
Pennsylvania                      34,190,555                26,704,054          7,486,502               78%
Virginia                          25,012,521                19,505,506          5,507,015               78%
Kentucky                          15,405,625                11,900,130          3,505,495               77%
Montana                            6,549,685                  5,004,647         1,545,038               76%
Minnesota                         14,262,071                10,685,416          3,576,655               75%
Guam                               2,600,678                  1,928,498           672,180               74%
Michigan                          25,039,781                18,281,670          6,758,111               73%
Maryland                         22,934,593                 15,718,894          7,215,699               69%
Washington                        19,180,347                12,959,795          6,220,552               68%
Florida                           42,888,266                28,817,579         14,070,687               67%
Arkansas                          11,169,402                  7,467,510         3,701,892               67%
Oregon                            12,182,532                  7,523,518         4,659,014               62%
Wisconsin                         15,367,216                  9,387,574         5,979,642               61%
Wyoming                            5,952,187                  3,544,211         2,407,976               60%
Vermont                            4,476,761                  2,534,688         1,942,073               57%
California                        94,034,510                53,092,113         40,942,397               56%
Connecticut                       12,999,879                  7,242,800         5,757,079               56%
North Carolina                    22,130,199                11,509,680         10,620,519               52%



                                                 13 
U.S. Department of Commerce                                                                        Final Report
Office of Inspector General                                                                   November 10, 2011



                                                              Drawdowns as of 
                                       PSIC Federal                                    Total PSIC Funds       Amount 
 State                                                         September 30, 
                                        Funds ($)                                       Remaining ($)        Drawn (%) 
                                                                  2011 ($) 

 Missouri                             17,465,576                      8,765,573           8,700,003                50%
 New Mexico                            8,288,725                      3,865,063           4,423,662                47%
 New Jersey                           30,806,646                    12,921,278           17,885,368                42%
 New York                             60,734,783                    25,411,586           35,323,197                42%
 Nebraska                              8,582,108                      3,062,210           5,519,898                36%
 Alabama                              13,585,399                      4,132,383           9,453,016                30%
 Massachusetts                        21,191,988                      2,835,441          18,356,547                13%
 New Hampshire                         5,966,760                         377,093          5,589,667                 6%
       Total Extensions              807,647,445                  537,822,233           269,825,212                67%

          Table 2. Grantees Not Requesting Extensions to September 30, 2012

                                                             Drawdowns as of 
                                     PSIC Federal                                      Total PSIC Funds       Amount 
 State                                                        September 30, 
                                      Funds ($)                                         Remaining ($)        Drawn (%) 
                                                                 2011 ($) 

 American Samoa                        691,948                          691,948                  ‐                100%
 Kansas                             10,667,169                     10,655,125               12,044                100%
 Ohio                              29,377,337                     29,252,968              124,369                 100%
 North Dakota                        7,052,490                       7,003,994              48,496                 99%
 Colorado                          14,336,638                      14,232,796             103,842                  99%
 Virgin Islands                          856,907                        849,454              7,453                 99%
 Louisiana                          19,672,287                     19,497,916              174,371                 99%
 South Dakota                        6,549,691                       6,487,260              62,431                 99%
 Mississippi                        10,989,345                     10,856,168              133,177                 99%
 N. Mariana Islands                    719,236                          687,516             31,720                 96%
 Rhode Island                        7,365,694                       7,001,649             364,045                 95%
 Tennessee                         17,540,752                      16,668,664             872,088                  95%
 Indiana                            18,291,735                     17,266,238            1,025,497                 94%
 West Virginia                       8,429,484                       6,510,613           1,918,871                 77%
 Delaware                            8,196,842                       5,627,678           2,569,164                 69%
          Total Non‐Ext            160,737,555                   153,289,987             7,447,568                 95%

                   Grand Total    968,385,000                 691,112,220              277,272,780                 71%

Source: NTIA/FEMA monthly drawdown reports
Bold indicates OIG audited grantee; bold italics indicates OIG audit planned or in process.




                                                      14 
U.S. Department of Commerce                                            Final Report
Office of Inspector General                                       November 10, 2011


               Figure 1. Percent of PSIC Funds Drawn Down by Grantee
                              (as of September 30, 2011)




                                        15 
U.S. Department of Commerce                                             Final Report
Office of Inspector General                                        November 10, 2011


                       Appendix C: Responses to OIG Draft Report

NTIA response:




                                          16 
U.S. Department of Commerce              Final Report
Office of Inspector General         November 10, 2011




                              17 
U.S. Department of Commerce              Final Report
Office of Inspector General         November 10, 2011




                              18 
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                            November 10, 2011


FEMA response:

                         Response to the Third Annual Assessment of the
                   Public Safety Interoperable Communications Grant Program:
                    NTIA and FEMA Need to Improve Oversight of PSIC Grants

   Recommendation #1:         Implement a plan that provides for the active monitoring of
   equipment and its operational capability.

   Response: FEMA does not concur with this recommendation and considers it resolved.

   FEMA agrees that the active monitoring of Public Safety Interoperable Communications (PSIC)
   Grant Program recipients is an important component of grants administration and consequently
   the Agency implements a robust programmatic and financial grant monitoring protocol that
   leverages multiple resources to execute this objective. FEMA uses programmatic grant
   monitoring as a mechanism to review and verify that grant funds are used in a manner consistent
   with the grantee’s stated implementation plan and according to the applicable rules and
   regulations of the awarding office (e.g., equipment acquisition guidelines). FEMA implements a
   straightforward, proactive approach that provides specific front-end guidance to PSIC Grant
   Program recipients for identifying appropriate, allowable, and functional interoperable
   communications equipment. This approach leverages the resources and expertise of the entire
   DHS and the full spectrum of communications professionals. Additionally, FEMA will supplement
   its post-award monitoring efforts to include targeted questions that address equipment purchases.

   FEMA conducts biennial on-site programmatic grant monitoring for recipients of DHS grant funds,
   including the Homeland Security Grant Program portfolio, the PSIC Grant Program, and other
   preparedness grant programs. On-site programmatic monitoring visits address five key areas:
   1) background information; 2) prior-year grantee projects; 3) homeland security strategy goals
   and objectives, 4) the National Priorities; and 5) issues or concerns. FEMA’s programmatic grant
   monitoring efforts are implemented by designated Program Analysts (PAs) that have oversight
   responsibilities for a particular set of jurisdictions. As part of the monitoring process, the PAs
   review proposed and historic funding priorities to ensure that they align with the National
   Preparedness Guidelines, establish or strengthen target capabilities, and enhance national or
   regional emergency management capabilities. PAs support State, local, territorial, and tribal
   governments as they develop and execute a capability-based planning methodology that uses
   critical Federal assistance to build and sustain State- and local-level competencies necessary to
   prepare for and respond to acts of terrorism. This support includes, advice related to equipment
   evaluation and acquisition, training, exercises, technical assistance, and planning required for
   preparedness and response. The programmatic monitoring efforts identify problems that may
   impede effective implementation of the funded programs or projects and serve to assess program
   progress and implementation.

   The programmatic grant monitoring also verifies that grant funds are used in accordance with
   applicable rules, regulations, and guidance. The revised PSIC Program Guidance and Application
   Kit (dated August 2007) directed grantees to follow the Fiscal Year (FY) 2007 Recommended
   Federal Grant Guidance, Emergency Response Communications and Interoperability Grants
   (SAFECOM Guidance), as well as the DHS Authorized Equipment List and the Interagency
   Board’s Standardized Equipment List (located on the Responder Knowledge Base [RKB]) when
   procuring voice and data communications equipment. These documents, developed and
   maintained with input from a diverse group of public safety stakeholders, provide consistent
   guidance across all DHS grant programs for interoperable communications expenditures.

   The SAFECOM Guidance for Federal Grant Programs is annually reviewed and updated by the
   DHS Office of Emergency Communications (OEC) with input from numerous Federal, State, and
   local stakeholders and provides technical information and recommendations for allowable costs
   for all Federal agencies to consider when developing program guidelines. The RKB, a web-based



                                                  19 
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                      November 10, 2011


       information sharing service, has more than 1,100 contributing organizations, contains information
       on more than 5,000 products, and also provides guidance to emergency responders on
       equipment purchases. This product specific information includes certification data (regarding
       Project 25 [P25] compliance), training requirements, and external links to jurisdictions that have
       purchased the same equipment. This information is particularly useful to PSIC grantees because
       the PSIC Program Guidance and Application Kit specifically states (on page 41), agencies that
       purchase P25-compliant equipment8 “must obtain documented evidence from the manufacturer
       that the equipment has been tested to and passed all of the applicable, published, normative P25
       compliance assessment test procedures for performance, conformance, and interoperability as
       defined in the “[FY 2007 SAFECOM] Grant Guidance—P25 Explanatory Addenda…”.

       The SAFECOM Guidance also references the P25 Compliance Assessment Program (CAP)
       guidelines. The P25 CAP is a voluntary program that allows P25 equipment suppliers to formally
       demonstrate their products’ compliance with a select group of requirements by testing it in
       recognized laboratories. P25 CAP is a partnership of the DHS Science and Technology
       Directorate, the Department of Commerce (DOC) National Institute of Standards and Technology,
       the Department of Justice, industry, and the emergency response community. The P25 CAP
       establishes a process for ensuring that equipment complies with P25 standards and is capable of
       interoperating across manufacturers. The importance of the SAFECOM Guidance CAP language
       – used for the first time in 2007 – is to emphasize to State and local purchasers of P25 equipment
       that the onus is on them to obtain the relevant documentation (e.g., SDOC) to validate
       manufacturer claims. This placement of responsibility is especially important because of the
       voluntary nature of compliance activities regarding manufacturer testing.

       In addition to the issued guidance and programmatic monitoring efforts, FEMA supplements its
       post-award monitoring by including targeted questions that address equipment purchases. FEMA
       proactively added a question to the closeout Biannual Strategy Implementation Report (BSIR)
       that requires grantees to confirm that “to the best of the State Administrative Agency’s
       knowledge, all PSIC-funded equipment was purchased in accordance with the award terms and
       conditions.” Also, for the remaining 2011 and upcoming 2012 site visits, FEMA will add the topic
       of equipment purchases and operational capability to the site visit agenda. Finally, FEMA will host
       an in-service briefing for the PAs to share best practices and lessons learned related to PSIC
       grantee assistance, programmatic monitoring, and closeout activities.

       Recommendation #2:            Develop a formal document for grantees that reconciles all existing
       guidance on proportionality and ensure that matching share funds are provided at a rate that is
       proportional to the federal funds drawdown.

       Response: FEMA does not concur with this recommendation and considers it resolved.

       FEMA agrees that the PSIC Program Office provided conflicting information to grantees about
       match proportionality. The DOC OIG draft report dated October 2011 cites the PSIC Grant
       Program Guidance and Application Kit and the PSIC Program Management Handbook as
       sources of authority for requiring grantees to contribute non-Federal matching share in proportion
       to the expenditure of Federal grant funds. However, it is FEMA’s position that there is no
       regulatory or statutory authority to support the enforcement of a proportionality standard. To
       clarify this issue at the program level, FEMA submitted a letter (dated July 27, 2011) to the DOC
       National Telecommunications and Information Administration (NTIA) that effectively waives the
       proportionality requirement. It is now appropriate for the PSIC Program Office to address this
                                                            
8
     Public safety and industry have partnered through the Telecommunications Industry Association to develop P25
    LMR standards that allow equipment to interoperate regardless of manufacturer—enabling emergency responders
    to exchange critical communications. The goal of P25 is to specify formal standards for interfaces between the
    various components of an LMR system, commonly used by emergency responders.




                                                               20 
U.S. Department of Commerce                                                                    Final Report
Office of Inspector General                                                               November 10, 2011


   issue directly with the grantees. FEMA is prepared to draft a clarifying statement regarding the
   proportionality issue and distribute it to grant recipients from the authorized PSIC Program Office
   email account by the end of the first quarter of fiscal year 2012. This statement will acknowledge
   the conflicting information and clarify that while proportional contributions of matching share is not
   a requirement under the PSIC Grant Program, it is a useful indicator of grantee performance.

   The Digital Television Transition and Public Safety Act of 2005 (Public Law 109-171, Section
   3006) requires PSIC grantees to contribute a minimum 20 percent matching share, from non-
   Federal sources, for the acquisition and deployment of communications equipment. This
   requirement also applies to Management & Administration costs charged to the grant. In addition,
   section VI (B) of the PSIC Program Guidance and Application Kit includes the language,
   “grantees will only be permitted to draw down PSIC funds in proportion to demonstrated non-
   Federal matching funds.” However, to clarify, neither DHS nor DOC codified regulations address
   the proportionality issue.

   Initially, the Program interpreted the proportionality clause as broad guidance to prevent
   situations in which grantees spend all allocated Federal funds without supplying the required non-
   Federal matching funds. The PSIC Program Office never presented this clause to grantees as a
   literal requirement, and FEMA has consistently argued that a strict interpretation of the
   proportionality clause in the PSIC Program Guidance and Application Kit would be unduly
   burdensome to the State Administrative Agencies (SAA) responsible for managing the individual
   PSIC awards.

   The DOC Financial Assistance Standard Terms and Conditions (T&C) document defines a
   proportionality requirement “…the non-Federal share, whether in cash or in-kind, is expected to
   be paid out at the same general rate as the Federal share.” The DoC T&C document allows for
   “…exceptions to this requirement (proportionality) may be granted by the Grants Officer…”
   however, the presumption is that a proportionality standard exists unless it is waived by the
   grants office. It is important to note that this is a non-regulatory, department-specific document
   that does not identify the source of authority for implementing a proportionality standard. It is
   FEMA’s position that grantees should not be bound to a requirement for which there is no
   statutory or regulatory authority.

   FEMA serves as the Grant Office for the administration of the PSIC Grant Program. PSIC
   grantees have been instructed, by Special Condition #1 of the Award Document, to “…comply
   with the financial and administrative requirements set forth…” in the DHS Financial Management
   Guide. This document specifically states that “matching contributions need not be applied at the
   exact time or in proportion to the obligation of the Federal funds unless stipulated by legislation.”
   It is FEMA’s position, even assuming that the DOC T&C document was applicable to the PSIC
   program, that as the Grant Office it has authority to waive the proportionality requirement for
   PSIC grantees and has done so through both the direction provided in the DHS Financial
                                                       th
   Management Guide and in the text of the July 27 2011 letter.

   FEMA acknowledges the value of monitoring the rate at which PSIC grantees apply matching
   share contributions and will continue to engage with grant recipients to ensure that they meet the
   overall non-Federal match requirement. The PSIC Program Office has included this subject as an
   agenda item for all PSIC site visits and will continue to do so through September 30, 2012. FEMA
   will continue to actively monitor quarterly Federal Financial Reports (FFR) to identify grantees
   reporting zero or minimal amounts of non-Federal matching contributions. As noted in the OIG
   draft report, grantees have reported zero recipient share, or non-Federal match, on FFRs. Each
   quarter, the PSIC Program Office identifies these grantees, reviews their respective FFRs for the
   previous four quarters, and then notifies the grantees of the suspected errors. Historically,
   grantees have been very responsive to these inquiries and resubmitted revised reports within a
   short timeframe of the notification. FEMA will also monitor FFRs to identify grantees making
   inconsistent reports of non-Federal matching contributions. FEMA is committed to the success of
   the PSIC Grant Program and will continue to ensure that the financial and program management



                                                    21 
U.S. Department of Commerce                                                                                   Final Report
Office of Inspector General                                                                              November 10, 2011


       practices applied to the Program support the goals of the Program and help PSIC grantees
       successfully implement their PSIC Investments.

       Recommendation #3:          Actively monitor and document grantee progress towards achieving
       program goals including the achievement of updated milestones for grantees that requested an
       extension until September 2012.

       Response:                            FEMA concurs with the intent of this recommendation and considers it
       resolved.

       FEMA agrees that the active monitoring of Public Safety Interoperable Communications (PSIC)
       Grant Program recipients is an important component of grants administration and consequently
       the Agency implements a robust programmatic and financial grant monitoring protocol that
       leverages multiple resources to execute this objective. FEMA employs robust financial and
       programmatic monitoring standards for recipients of preparedness grant funds, including PSIC.
       For example, during FY 2009 and FY 2010, FEMA regional staff financially monitored a total of 46
       PSIC awards (38 site visits and 8 desk reviews) and PAs programmatically monitored all 56
       SAAs. The DOC OIG requested a sample of six programmatic monitoring reports and six financial
       monitoring reports. FEMA provided copies of the requested Financial monitoring Reports and has
       included copies for the Programmatic Monitoring Reports with this response.

       Effective financial monitoring and oversight helps FEMA ensure that grant funds are used for the
                                                                                9
       intended purpose and that grantees comply with regulatory requirements . In compliance with
       Federal regulations, applicable Office of Management and Budget cost principles, and program
       guidance, FEMA regularly monitors all grant programs.10 Financial monitoring activities involve
       collecting and analyzing information on grantees’ business functions and grant administration
       practices and are executed by the FEMA regional offices. Through these reviews, FEMA
       assesses its grantees’ capacity to administer grants in compliance with Federal regulations and
       evaluates grantee performance in grant administration areas. Financial monitoring is one tool
       used by FEMA to ensure compliance with any regulations or guidance governing the grant
       award(s), proactively assess any impediments to grant success, and assist in their resolution.

       Each fiscal year, FEMA develops an overarching financial monitoring plan that guides the
       monitoring activities of the Agency’s Regional Grants Management Branches and Headquarters-
       based Award Administration Branches. This Plan provides the basis for developing individual
       office-specific schedules and an overview of FEMA’s annual approach to financial monitoring of
                                                           11
       grants. FEMA uses a risk management philosophy that assesses the monitoring needs of each
       individual grant or specific grantee by considering eight key indicators: 1) spending patterns, 2)
       grant dollar value, 3) grantee responsiveness, 4) Administrator’s priority, 5) new FEMA
       grantee/grantee with new personnel, 6) number of grants managed by grantee, 7) prior financial
       monitoring findings, and 8) program type. This approach enables FEMA to fulfill statutory
       requirements and address leadership focus areas, while monitoring a substantial cross-section of
       grants and grant programs through sampling.

       FEMA uses programmatic grant monitoring as a mechanism to review and verify that grant funds
       are used in a manner consistent with the grantee’s stated implementation plan and according to
       the applicable rules and regulations of the awarding office. It identifies problems that may impede
                                                            
9
  The Implementing Recommendations of the 9/11 Commission Act of 2007 (hereafter referred to as the “9/11 Act”),
   the Code of Federal Regulations for Emergency Management Assistance (44 CFR), the Code of Federal
   Regulations for Grants and Agreements (2 CFR), and FEMA policy represent the primary regulations surrounding
   FEMA’s financial monitoring activities.
10
   Other mandates, such as section 2022 of the 9/11 Act, require monitoring not less than once every two years for
   applicable Preparedness grants.
11
   U.S. Department of Homeland Security 2008-2013 Strategic Plan: “Apply Risk Management: The homeland
   security mission is complex, and resources are constrained. The Department will use qualitative and quantitative
   risk assessments to inform resource decisions.”



                                                                      22 
U.S. Department of Commerce                                                                  Final Report
Office of Inspector General                                                             November 10, 2011


   effective implementation of the funded programs or projects and serves to assess program
   progress and implementation. At a minimum, FEMA conducts biennial on-site programmatic grant
   monitoring for recipients of DHS grant funds, including the Homeland Security Grant Program
   portfolio, the PSIC Grant Program, and other preparedness grant programs. On-site
   programmatic monitoring visits address five key areas: 1) background information; 2) prior-year
   grantee projects; 3) homeland security goals and objectives, 4) the National Priorities; and 5)
   issues or concerns. As part of the monitoring process, the designated PA reviews proposed and
   historic funding priorities to ensure that they align with the National Preparedness Guidelines,
   establish or strengthen target capabilities, and enhance national or regional emergency
   management capabilities. PAs support State, local, territorial, and tribal governments as they
   develop and execute a capability-based planning methodology that uses critical Federal
   assistance to build and sustain State- and local-level competencies necessary to prepare for and
   respond to acts of terrorism. This support includes advice related to equipment evaluation and
   acquisition, training, exercises, technical assistance, and planning required for preparedness and
   response.

   In addition to FEMA’s overarching monitoring activities, the PSIC Program Office has
   supplemented those services with numerous PSIC-specific oversight and assistance efforts. In
   2008, the PSIC Program Office conducted eight site visits in response to requests for program
   clarification and grantee assistance. In 2009, a representative from the office visited a grantee to
   assist in compiling environmental compliance documentation. The office conducted two targeted
   site visits in 2010. The first visit was based on specific programmatic concerns (e.g., financial
   reporting) and the second on challenges associated with meeting the environmental compliance
   requirements. Since May 2011, the PSIC Program Office has conducted a total of nine formal site
   visits. Based on the PSIC Monitoring and Communications Strategy, which is a supplement to all
   previously defined monitoring efforts, an additional seven site visits are scheduled to be
   completed before the end of 2011, and 12 will occur in 2012. The DOC OIG requested the FEMA
   grant files for 12 PSIC grantees. At the time of the request, FEMA had only conducted a site visit
   to one of the 12 identified grantees (i.e., 2009 visit related to environmental compliance).

   The OIG’s draft report erroneously asserts that the calendar year 2011 site visit schedule,
   originally submitted in January 2011, had been reduced in scope by a modified plan submitted in
   August 2011. However, the August document, recently renamed the “Monitoring and
   Communications Strategy,” actually outlines a communication strategy that clearly defines how
   the PSIC Program Office will distribute mass and targeted emails to the two grantee groups – the
   44 grantees with a period of performance extension to June 30, 2012 and the 12 with a period of
   performance end date of September 30, 2011. This document serves as an internal program
   management tool that incorporates all applicable guidance and job aids (e.g., PSIC Closeout
   Assistance Toolkit, mass email reminder templates, schedules for site visits and formal
   communications) to inform and guide the PSIC Program Office’s grantee assistance efforts. This
   strategy document is intended to supplement all previously developed documentation or
   correspondence related to monitoring efforts and does not supersede any of the PSIC Program
   Office’s other communications, monitoring, or site visit efforts. FEMA has included a revised
   version of the Monitoring and Communications Strategy to include placeholder site visits in 2012
   and additional clarifying language about the purpose of the strategy.

   During summer 2010 and winter 2011, the PSIC Program Office also conducted 34 ‘pulse checks’
   with grantees as part of an active monitoring effort that offered an informal means of engaging
   with grantees to understand progress of PSIC Investments to date, as well as any implementation
   barriers. Each pulse check session was conducted over the phone by at least one representative
   from the PSIC programmatic team and the assigned National Environmental Policy Act team
   representative. During these voluntary conversations, grantees and the PSIC program staff
   discussed Investment progress, implementation barriers, and the impact PSIC funds have had on
   emergency communications capabilities. Program staff also fielded inquiries regarding the period
   of performance extension process. During the PSIC Grantee Conference held in Cleveland, Ohio




                                                   23 
U.S. Department of Commerce                                                                  Final Report
Office of Inspector General                                                             November 10, 2011


   on October 5-6, 2010, FEMA PAs and PSIC Program staff conducted one-on-one interviews with
   20 grantees to again gauge progress and offer programmatic and environmental compliance
   assistance.

   From now through the end of the extended period of performance (June 30, 2012), the PSIC
   Program Office will also conduct quarterly check-ins with grantees to gauge progress against the
   timelines and milestones defined in the grantees’ period of performance extension requests. For
   example, in early January, the office will contact grantees that indicated a project or Investment
   would be complete in October, November, or December 2011. These calls, similar to the
   aforementioned pulse checks, will provide an opportunity to monitor progress, as well as offer
   immediate grantee assistance on a variety of issues (e.g., financial reporting, closeout,
   Investment modifications). The information gathered on these calls will inform and update the
   PSIC Monitoring and Communications Strategy, as well as NTIA’s milestone tracker. In addition,
   the PSIC Program Office will leverage informal discussions, such as those related to Investment
   modifications, to gather information on implementation statuses and timelines. These
   conversations will be documented in existing communications logs.

   Recommendation #4:       Provide evidence to the OIG quarterly that those grantees with less
   than 50% drawdowns as of September 30, 2011 are being actively monitoring through closeout.

   Response:           FEMA concurs with the intent of this recommendation and considers it
   resolved.

   FEMA has already identified and prioritized those jurisdictions with less than 50% drawndown of
   grant funds as requiring additional monitoring and oversight. As of September 30, 2011, eight
   grantees had drawdown rates of less than 50 percent. The PSIC Program Office has already
   scheduled site visits for six of those grantees during calendar year 2011. The Monitoring and
   Communications Strategy, as provided, indicates that the PSIC Program Office will visit the other
   two grantees during first quarter 2012 (i.e., January, February).

   The PSIC Grant Program will continue its various monitoring activities (e.g., conducting
   information pulse checks, reviewing FFR and BSIR data, answering grantee inquiries, providing
   on-site assistance) through the end of the period of performance to gauge the financial and
   programmatic progress of its grantees as they implement their PSIC Investments. The PSIC
   Program Office will also continue leveraging the existing grant monitoring efforts of the FEMA
   PAs, as well as the FEMA regional offices to identify potential areas of concern.

   From now through the end of the extended period of performance (June 30, 2012), the PSIC
   Program Office will also conduct quarterly check-ins with grantees to gauge progress against the
   timelines and milestones defined in the period of performance extension requests. These calls,
   similar to the pulse checks, will provide an opportunity to monitor progress and specifically
   discuss draw downs, as well as offer immediate grantee assistance on a variety of issues (e.g.,
   financial reporting, closeout, Investment modifications). The information gathered on these calls
   will inform and update the PSIC Monitoring and Communications Strategy, as well as NTIA’s
   milestone tracker. In addition, the PSIC Program Office will leverage informal discussions, such
   as those related to Investment modifications, to gather information on implementation statuses
   and timelines.

   FEMA will continue to support NTIA by managing and administering the PSIC program through
   September 30, 2012. The data collected from these activities will be available for review.




                                                   24 
